WWvJV/

I

s &-T, l/Ul/UI 1 HOI It, U

, Kj’+iwicxic.u, c.o \ t\joo, rage i

ot i

OSHA
OSHC-1: 2-4173-19-025
Yebesi, Acting Director

United States Court of Appeals
FOR THE
SECOND CIRCUIT

At a stated term of the United States Court of Appeals for the Second
Circuit, held at the Thurgood Marshall United States Courthouse, Foley Square, in
the City of New York, on the 9th day of April, two thousand twenty.
Present:
Susan L. Carney,
Richard J. Sullivan,
Joseph F. Bianco,
Circuit Judges.
David Wyche,
Petitioner,
v.

19-3194

Occupational Safety and Health Administration,
Respondent.
Respondent moves to dismiss this petition for review for lack of jurisdiction. Upon due
consideration, it is hereby ORDERED that Respondent’s motion is GRANTED and the petition
for review is DISMISSED. See New York Pub. Interest Research Grp. v. Whitman, 321 F.3d 316,
331 (2d Cir. 2003) (“[A]n agency’s decision not to invoke an enforcement mechanism provided
by statute is not typically subject to judicial review.”).
FOR THE COURT:
Catherine O’Hagan Wolfe, Clerk of Court

Case 19-3194, Document 74, ob/iu/zuzu, 2353/41, Kagei on

UNITED STATES COURT OF APPEALS
j
FOR THE
1
SECOND CIRCUIT

At a Stated Term of the United States Court of Appeals for the Second Circuit, held at
the Thurgood Marshall United States Courthouse, 40 Foley Square, in the City of New York, on
the 10th day of June, two thousand twenty,
Present:

Susan L. Carney,
Richard J. Sullivan,
Joseph F. Bianco,
Circuit Judges,

ORDER
Docket No. 19-3194

David Wyche,
Petitioner,
v.

Occupational Safety and Health Administration,
Respondent.

Appellant David Wyche filed a motion for reconsideration and the panel that determined
the motion has considered the request.
IT IS HEREBY ORDERED, that the motion is denied.

For The Court:
Catherine O'Hagan Wolfe,
Clerk* of Court

/ IU/C.WC.U,

MANDATE

i avjci ut i

OSHA
OSHC-1: 2-4173-19-025
Yebesi, Acting Director

United States Court of Appeals
FOR THE

SECOND CIRCUIT
At a stated term of the United States Court of Appeals for the Second
Circuit* held at the Thurgood Marshall United States Courthouse, Foley Square, in
the City of New York, on the 9th day of April, two thousand twenty.
Present:
Susan L. Carney,
Richard J. Sullivan,
Joseph F. Bianco,
Circuit Judges.
David Wyche,
Petitioner,
19-3194

v.
Occupational Safety and Health Administration,
Respondent.

Respondent moves to dismiss this petition for review for lack of jurisdiction. Upon due
consideration, it is hereby ORDERED that Respondent’s motion is GRANTED and the petition
for review is DISMISSED. See New York Pub. Interest Research Grp. v. Whitman, 321 F.3d 316,
331 (2d Cir. 2003) (“[A]n agency’s decision not to invoke an enforcement mechanism provided
by statute is not typically subject to judicial review.”).
FOR THE COURT:
Catherine O’Hagan Wolfe, Clerk of Court
A True Copy
Catherine O’Hagan Wj
United States CoufMfi

:ond Circuit

MANDATE ISSUED ON 06/18/2020

U.S. Department of Labor

Occupational Safety and Health Administration
New York Regional Office
201 Varick Street, Room 670
New York, NY 10014

V

July 10,2019
David Wyche
1 Towne Center, Apt. 621
Cliffside Park, NJ 07010
Via Email: davebvran@.gmail.coiia
RE: K&M Systems, Inc.AVyche/2-4173-19-025
Dear Mr. Wyche:
This is to advise you that we have completed our investigation of the above-referenced complaint filed
by you (Complainant) against K&M Systems, Inc. (Respondent), under the employee protection
provisions of Section 11(c) of the Occupational Safety and Health Act (the Act), 29 U.S.C. § 660(c).
The complaint was timely filed. Complainant was terminated on November 16, 2018. Complainant
filed a complaint alleging a violation of the Act on November 26,2018, within the 30-day statutory filing
period.
Complainant and Respondent are covered by the Act.
Complainant worked as a Radio Frequency Field Test Engineer for Respondent. Complainant alleges
engaging in protected activity by complaining to management that he was not properly trained to do his
job. On November 5, 2018, Complainant contacted Human Resources and reported that it was raining
and he felt it was unsafe working in a bucket truck in those weather conditions. Complainant was
terminated on November 16, 2018, and he believes it was in retaliation for engaging in protected
activities.
Respondent denies taking retaliatory action against Complainant, and claims they made a legitimate
business decision in his termination. Respondent contends on November 5, 2018, Complainant called
Human Resources because he felt uncomfortable working in the rain. Respondent allowed Complainant
to sign out and stop working that day. Respondent further contends they received complaints from their
client about Complainant’s difficulty producing and completing tasks. Furthermore, Respondent
contends from the start of Complainant’s employment up to his termination, Respondent continuously
attempted to train Complainant in the job tasks. After approximately 90 days and multiple complaints,
Respondent determined Complainant was not able to learn the job and made the decision to terminate
his employment.
The evidence shows, absent Complainant’s protected activities, Respondent would have taken the same
adverse employment action. Therefore, OSHA does not have reasonable cause to believe Respondent
violated the Act.
There is no reasonable cause to believe Respondent violated the Act.

K&M Systems, Inc ./Wyche/2-4173-19-025

Page 2 of 2

Consequently, this complaint is dismissed.
This case will be closed unless Complainant files a request for review by sending a letter to:
Director
Directorate of Whistleblower Protection Programs
U.S. Department of Labor - OSHA
200 Constitution Avenue, N.W., Room N-4618
Washington, D.C. 20210
With a copy to:
Teri M. Wigger
Assistant Regional Administrator
U.S. Department of Labor-OSHA
201 Varick Street Room 670
New York, NY 10014
212-337-2368
A Complainant has 15 calendar days after receiving these findings to request a review of the decision to
dismiss from the Directorate of Whistleblower Protection Programs (DWPP). Otherwise, this case will
be closed. If a review is requested, DWPP will review the case file to ascertain whether the investigation
dealt adequately with all factual issues and whether the investigation was conducted fairly and in
accordance with applicable laws. The outcome will be either to return the case to the investigator for
further investigation or to affirm the decision to dismiss, after which the case is closed.
Sincerely,

Christopher Carlin
Regional Supervisory Investigator
cc:

K&M Systems, Inc. (via email: katie.hunt@kmswireless.com)
DWPP

U.S. Department of Labor

Occupational Safety and Health Administration
Washington, D.C. 20210

%
89

w

AUG 21 2019
David Wyche
1 Towne Center Apt 621
Cliffside Park, NJ 07010
RE:

K&M Systems, Inc. / Wyche / 2-4173-19- 025

Dear Mr. Wyche:

M

°rdS "ffthat.y0U flled a °°mPlaint gainst Respondent on November 26

employment due to performance issues, and not for engaging in protected activity.

Your

S/Ser Sr zsssssr** ^you to
Please note that this is the final determination of the Secretaiy of Labor; your case is now closed.
Sincerely,

’rancis Yebe&
U Acting Director
Directorate of Whistleblower Protection Programs
cc:

RegionafOffice
Respondent

Additional material
from this filing is
available in the
Clerk's Office.

